Federal Deposit Insurance Corporation
Office of Inspector General




  Office of Inspector General
          FY 2005 Performance Plan
            (October 1, 2004 – September 30, 2005)
                                    Table of Contents

Introduction ..............................................................................................................1

Strategic Plan Framework (2004-2008)...................................................................2

Mission, Vision, and Core Values ...........................................................................3
   OIG ........................................................................................................................3
   FDIC ......................................................................................................................5

Strategic Outlook .....................................................................................................6

OIG Strategic Goals, Objectives, and Annual Performance Goals .......................11
    Tree Diagram of OIG Goals and Objectives ...............................................................12

Resource Management ..........................................................................................18
    Mission Support Offices .........................................................................................18
    Strategic Focus Areas .............................................................................................18
       Human Capital ...................................................................................................19
       Information Technology Management and Security ................................................23
       Process Improvement: Quality Assurance and Risk Management ..............................24

External Factors ....................................................................................................26

Verification and Validation of Performance Data .................................................28
Introduction

The Government Performance and Results Act of 1993 (Results Act or GPRA) was enacted to
improve the management, effectiveness, and accountability of federal programs. The Results
Act requires most federal agencies, including the FDIC, to develop a strategic plan that broadly
defines the agency’s mission and vision, an annual performance plan that translates the vision
and goals of the strategic plan into measurable objectives, and an annual performance report that
compares actual results against planned goals.

The Office of Inspector General strongly supports the Results Act and is fully committed to
applying its principles of strategic planning and performance measurement and reporting to our
operations. Doing so will enable us to focus energy on providing value to the Corporation and
will help identify where changes are needed to improve organizational effectiveness and
efficiency. The OIG Strategic Plan and Annual Performance Plan lay the basic foundation for
establishing goals, measuring performance, and reporting accomplishments consistent with the
principles and concepts of the Results Act.

Unlike the FDIC, which reports on a calendar year basis, the OIG receives a separate
appropriation based on the typical government fiscal year ending September 30. Therefore, our
Results Act performance planning and reporting is done on a September 30 fiscal year cycle.
The fiscal year cycle is also consistent with the semiannual reporting periods prescribed by the
Inspector General Act.

The OIG’s Annual Performance Plan describes what we will accomplish during the year to help
achieve our long-term strategic goals and objectives. It builds upon the OIG Strategic Plan and
bridges the gap between our strategic goals and the day-to-day activities of our staff. The plan
reflects the OIG’s emphasis on adding value to the Corporation and doing work that is
responsive and relevant to the FDIC Chairman, the Congress, corporate management, and the
American public. The 2005 performance plan contains goals that focus on adding value to the
Corporation through our core mission activities of audits, evaluations, and investigations;
improving communications with our stakeholders; aligning human resources to support the OIG
mission, and managing our resources effectively. In keeping with the spirit of the Results Act,
the OIG is committed to the continued development of performance indicators and goals that
better measure the impact and results of our work.

The OIG recognizes that strategic planning supported by performance goal setting and
measurement is an ongoing and evolutionary process that requires continuous monitoring. We
further recognize the importance of results-oriented goals and alignment with the Corporation’s
strategic goals and objectives. Accordingly, we continually reevaluate our strategic and
performance plans and goals to ensure consistency with the objectives of the Results Act in
concert with the IG Act and the Corporation’s goals.




                                                1
                             FDIC Office of Inspector General
                                Strategic Plan Framework
                                                       (2004-2008)
    VISION


                                                       VISION
                    The agency and Congress see us as a valuable part of the Corporation
                          and we are viewed as one of the best OIGs in government.

                                                   MISSION
       The Office of Inspector General promotes the economy, efficiency, and effectiveness of FDIC
    programs and operations, and protects against fraud, waste, and abuse, to assist and augment the
    FDIC’s mission of maintaining the stability and public confidence in the nation’s financial system.

                                           STRATEGIC GOALS


Value and Impact                 Communication                       Human Capital                   Productivity
                                 and Outreach
OIG products will add                                                The OIG will align              The OIG will
value by achieving               Communications                      its human                       effectively
significant impact               between the OIG and                 resources to                    manage its
related to addressing            the Chairman, the                   support the OIG                 resources
issues of importance             Congress,                           mission
to the Chairman, the             employees, and other
Congress, and the                stakeholders will be
public                           effective



                                       STRATEGIC OBJECTIVES


    OIG will contribute to           OIG will foster                     OIG will enhance:               OIG will ensure:
       ensuring the:                   effective:

•      Protection of             •   Agency relations                •     Workforce                 •     OIG
       insured depositors            and                                   analysis and                    processes are
                                     communications                        planning                        efficient
•      Safety and
       soundness of              •   Congressional                   •     Competency                •     OIG products
       FDIC-supervised               relations and                         investments                     meet quality
       institutions                  communications                                                        standards
                                                                     •     Leadership
•      Protection of             •   OIG employee                          development
       consumer rights               relations and
                                     communications                  •     The
•      Achievement of                                                      development of
       recovery to               •   Relations and                         a results-
       creditors of                  communications                        oriented high
       receiverships                 with other OIG                        performance
                                     stakeholders                          culture
•      Effective
       management of
       agency resources


                                               CORE VALUES
              Communication                                                                  Excellence
                                 Objectivity                    Responsibility
                                                          2
Mission, Vision and Core Values

The Federal OIG Mission

Federal OIGs have responsibility to report on current performance and accountability and to
foster good program management to ensure effective government operations. The Inspector
General Act of 1978, as amended, created the OIGs to:1

   •   Conduct, supervise, and coordinate audits and investigations relating to the programs and
       operations of their agencies;
   •   Review existing and proposed legislation and regulations to make recommendations
       concerning the impact of such legislation and regulations on economy and efficiency or
       the prevention and detection of fraud and abuse;
   •   Provide leadership for activities designed to promote economy, efficiency, and
       effectiveness, and to promote efforts to reduce fraud, waste, and abuse in the programs
       and operations of their agencies;
   •   Coordinate relationships between the agency and other Federal agencies, State and local
       government agencies, and non-government agencies to promote economy and efficiency,
       to prevent and detect fraud and abuse, or to identify and prosecute participants engaged in
       fraud or abuse;
   •   Inform their agency heads and Congress of problems in their agencies’ programs and
       operations and the necessity for and progress of corrective actions; and
   •   Report to the Attorney General whenever the Inspector General has reasonable grounds
       to believe there has been a violation of Federal criminal law.

In addition to audits and investigations referenced in the first item above, OIGs may conduct,
supervise, and coordinate inspections and evaluations, and other reviews related to the programs
and operations of their agencies.


                                        Our Mission

       The Office of Inspector General promotes the economy, efficiency,

       and effectiveness of FDIC programs and operations, and protects

       against fraud, waste, and abuse, to assist and augment the FDIC’s

       mission of maintaining the stability and public confidence in the

       nation’s financial system.



                                                3
                                           Our Vision

           The agency and Congress see us as a valuable part of the Corporation

           and we are viewed as one of the best OIGs in government.

                                       OIG’s CORE Values

The OIG has adopted the following “CORE” values to guide us in achieving our mission, goals,
and objectives:


     Communication. The OIG strives for an environment of open and honest
     communication both among our people and with our customers and stakeholders. We
     listen to, learn from, and collaborate with our employees and stakeholders. We will build
     responsive and constructive relationships with corporate officials based on a shared
     commitment to improving program and operational effectiveness.

     Objectivity. The OIG will maintain personal, external, and organizational independence
     so that our opinions, conclusions, and recommendations will be impartial and will be
     viewed as impartial by knowledgeable third parties. We will exercise objective and
     unbiased judgement on all issues associated with conducting and reporting on our work.

     Responsibility. The OIG works toward ensuring that all employees have a clear
     understanding of what is expected of them. We believe that each individual is responsible
     and accountable for his or her actions and should be mindful that these actions always
     reflect on our customers’ perception of the OIG. We respect all of our employees because
     they are important, trusted, and the key to continued improvement of our services to all
     customers.

     Excellence. The OIG’s products and services must always be of the highest quality.
     They are defined by their accuracy, fairness, and usefulness to our customers. The OIG
     acknowledges that growth and vision are crucial to the success of our office. We must
     learn from the past and anticipate and prepare for the future. We are committed to taking
     actions, whenever necessary, to adapt to a changing environment in order to achieve and
     maintain the level of excellence expected of us by our customers.




1
    IG Act, Section 2 and Section 4.


                                                  4
We believe that fulfilling the OIG’s mission and striving to achieve our vision significantly
supports and assists in the achievement of the Corporation’s mission and vision.


                              The Corporation’s Mission

The Federal Deposit Insurance Corporation (FDIC) is an independent agency
created by the Congress that maintains the stability and public confidence in the
nation’s financial system by insuring deposits, examining and supervising financial
institutions, and managing receiverships.

                                             Vision

The FDIC is a leader in developing and implementing sound public policies,
identifying and addressing new and existing risks in the nation’s financial system,
and effectively and efficiently carrying out its insurance, supervisory, and
receivership management responsibilities.

                                            Values

The OIG also embraces the Corporation’s core values that follow:

Integrity. FDIC employees adhere to the highest ethical standards in the performance of their
duties and responsibilities.

Competence. The FDIC maintains a highly skilled, dedicated, and diverse workforce.

Teamwork. FDIC employees work cooperatively with one another and with employees in other
regulatory agencies to accomplish the Corporation’s mission.

Effectiveness. The FDIC responds quickly and successfully to identified risks in insured
financial institutions and in the broader financial system.

Financial Stewardship. The FDIC acts as a responsible fiduciary, consistently operating in an
efficient and cost-effective manner on behalf of insured financial institutions and other
stakeholders.

Fairness. The FDIC treats all employees, insured financial institutions, and other stakeholders
with impartiality and mutual respect.




                                                 5
Strategic Outlook
This section summarizes the OIG’s strategic outlook and environment as we strive to achieve our
mission through accomplishment of our strategic goals and objectives.

Corporate Environment and Management Challenges at the FDIC

Corporate Environment

The strategic outlook for the OIG, established within the corporate environment, must
necessarily give primary consideration to the challenges that the Corporation will face now and
in the future in meeting its mission. Accordingly, the OIG must continually evaluate major
corporate challenges and issues in order to identify corporate vulnerabilities (to fraud, abuse, and
inefficient, uneconomical and ineffective activities) that we must address to meet our mission
under the Inspector General Act.

FDIC Chairman Donald Powell has articulated a strategic vision for the FDIC. He believes the
Corporation should provide timelier and better banking-related information than anyone else;
recognize and respond to emerging risks before they threaten safety and soundness or harm
consumers; and become the authority and resource that the Congress, media, and others turn to
for guidance.

Corporate Performance Objectives have been developed for 2005 to continue the FDIC’s efforts
to accomplish the Chairman’s vision. These performance objectives are focused on strategic
change initiatives that have corporate-wide significance and are grouped under the areas of
Sound Policy, Stability, and Stewardship. Performance Objectives under Sound Policy include
initiatives relating to policy leadership, research contributions, deposit insurance reform
legislation, and reducing regulatory burden. Objectives under Stability include initiatives
relating to insuring and supervising large banks, effectiveness of risk analysis and fund
management processes, banking system protection, improving bank supervision, and banking
data availability to the public. Stewardship objectives are included to reduce corporate operating
costs, promote a high-performing workforce, improve the Corporation’s information technology
program, and effectively manage capital investment projects.

The OIG fully supports the Chairman’s vision and the associated objectives and initiatives by the
Corporation and will do all it can, in partnership with the Corporation, other financial regulatory
agencies, and the Inspector General community, to help make it a reality.

Management and Performance Challenges Facing the FDIC

In the interest of improving federal performance government-wide, the Senate Governmental
Affairs Committee has asked Offices of Inspector General to annually identify the most
significant management challenges facing their agencies. At the FDIC, our office has identified
and reported these challenges to the Chairman, the Congress, and others through our Semiannual
Reports to the Congress. In addition, the Reports Consolidation Act of 2000 (RCA) provides
that an agency producing a consolidated performance and accountability report will include a
statement prepared by the agency’s Inspector General that summarizes the most serious
management and performance challenges facing the agency. Beginning in 2002, the FDIC


                                                 6
decided to prepare a consolidated performance and accountability report consistent with the
RCA. This report consolidates the FDIC’s Chief Financial Officers Act Report, the GPRA
Program Performance Report, and the traditional Annual Report. In the spirit of the RCA, the
Inspector General provides for inclusion in the consolidated annual report a statement that
identifies and assesses the most serious management and performance challenges facing the
Corporation. For the FDIC’s 2004 Annual Report to be published in February 2005, the OIG
identified management and performance challenges in the following seven areas:

   •   Corporate Governance in Insured Depository Institutions
   •   Management and Analysis of Risks to the Insurance Funds
   •   Security Management
   •   Money Laundering and Terrorist Financing
   •   Protection of Consumers’ Interests
   •   Corporate Governance in the FDIC
   •   Resolution and Receivership Activities

The OIG will continue to evaluate and annually update the challenges and will pursue audits,
evaluations, investigations, and other reviews that address these challenges and related corporate
risks. A detailed description of the management and performance challenges can be viewed on
the OIG’s Internet Web Site by visiting http://www.fdicoig.gov/gpra/MPCs_12-16-2004.pdf.

OIG Strategic Challenges and Strategies

The OIG is faced with the challenge of designing audit, evaluation and investigative strategies
which provide the highest value, or greatest return, in identifying and minimizing the
vulnerabilities and risks the Corporation faces as it addresses the formidable challenges
delineated above. As the Corporation identifies its priorities and develops its strategies to
operate into the future, the OIG recognizes it must stay abreast of changes and reevaluate its
priorities and strategies in light of the Corporation’s needs.

Audit and Evaluation Strategies

The Office of Audits develops and issues annual Assignment Plans which present audit and
evaluation assignments designed to help the FDIC successfully address risks, meet its many
challenges, and accomplish its strategic goals. The plan provides a key mechanism to assist the
OIG in achieving its first strategic goal (value and impact): OIG products will add value by
achieving significant impact related to addressing issues of importance to the Chairman, the
Congress, and the public.

The Office of Audits Assignment Plan is based on the OIG’s assessment of risks that the FDIC
faces in meeting its strategic goals and objectives, consistent with the Chairman’s priorities.
This risk assessment process is linked to the OIG’s identification of management and
performance challenges, as discussed above. This planning process is coordinated with the
FDIC Audit Committee and senior FDIC management. Reports and products issued under the
assignment plan are intended to produce constructive recommendations for improving programs
and activities, and achieve economies and efficiencies in operations. As such, we believe the
assignments will enhance FDIC corporate governance and contribute to the Corporation’s overall
risk management activities. The FY 2005 Office of Audits Assignment Plan can be viewed on

                                                7
the OIG’s Internet Web Site by visiting
http://www.fdicig.gov/FY05AssignmentPlan/FY05AP.pdf.

Audit and evaluation work addresses the Corporation's three principal operational areas as
discussed in the FDIC Strategic Plan – Insurance, Supervision, and Receivership Management.
Our work also addresses a fourth area of corporate attention discussed in the FDIC Strategic
Plan – Resource Management. This includes the FDIC’s human, financial, and technological
resources essential to the successful accomplishment of the Corporation’s mission and its annual
performance goals. The organization structure of the Office of Audits focuses on these strategic
areas.

The Office of Audits manages its audit and evaluation activity through the following six
operating directorates:

•   Supervision and Insurance
•   Resolution, Receivership, and Legal Services
•   Information Assurance
•   Systems Management
•   Resources Management
•   Corporate Evaluations (performs reviews that crosscut corporate operational areas)

The Office of Audits also maintains flexibility in its assignment planning to meet the changing
needs of the Corporation. In keeping with the OIG’s commitment to perform assignments that
are meaningful to the Corporation and that address corporate risks, the Office of Audits will be
mindful of the “next best assignment to perform” to ensure that all assignments meet identified
and emerging risks. To this end, during the fiscal year, higher priority assignments may be
substituted for those provided in the assignment plan, as appropriate.

Investigative Strategies

OIG investigative strategies and initiatives will add value to the Corporation’s programs and
operations by identifying and investigating instances of fraud, waste, and abuse and other
conduct leading to criminal, civil, and administrative penalties and recoveries. Several key
investigative strategies and initiatives are discussed below.

•   Solvent/Insolvent Banks – The OIG continues to work closely with U.S. Attorneys’ Offices,
    the FBI, and FDIC’s Division of Supervision and Consumer Protection (DSC) in addressing
    fraud at open and failed institutions. As federal law enforcement resources have had to be
    redirected to terrorism investigations, U.S. Attorneys’ Offices and the FBI are increasingly
    seeking OIG assistance in pursuing investigations of fraud at open and failed institutions. In
    addition to criminal prosecutions stemming from its investigations at open and failed
    institutions, the OIG has been working with the FDIC Legal Division and DSC to incorporate
    appropriate enforcement actions in the plea bargaining process, to prohibit offenders from
    future participation in banking.

•   Communication with DSC – The OIG communicates on an ongoing basis with DSC on
    matters relating to investigations of fraud at both open and closed institutions. Our
    relationship with DSC with respect to these cases has become increasingly collaborative as

                                                8
we work together to aggressively combat fraud and obstruction that harm FDIC regulated
and/or insured institutions. To this end, we meet routinely with DSC officials. In addition to
quarterly meetings with DSC’s Special Activities Section in Washington, OIG
representatives make regular visits to DSC regional and area offices to hold meetings with
DSC managers. On average we visit two offices a quarter, with a goal of visiting all eight
offices each year. During these meetings, we review our ongoing cases involving open and
closed institutions and discuss issues of mutual concern. In addition to these management
meetings, OIG agents have been making presentations to DSC staff at various field offices, to
provide an overview of our Office of Investigations operations and address our role in
investigating financial institution fraud. The OIG continues to work with DSC and other
FDIC program offices in developing and presenting training on “lessons learned” from our
cases that may provide insight into bank failures and red flags of fraud at financial
institutions.

In addition, the OIG issues quarterly reports to DSC officials outlining the status of
investigations involving open and failed institutions. At the conclusion of these cases, we
also issue memorandum reports to DSC outlining the results of the investigation. As actions
of significance occur in our cases, we provide DSC with relevant highlight reports, copies of
indictments, and relevant press releases and news articles. Working collaboratively, the OIG
and DSC have issued a revised agreement relating to our investigations at open institutions,
under which DSC now notifies the OIG of the filing of certain of Suspicious Activity
Reports.

Cooperative Efforts with DRR/Legal – The OIG continues to coordinate closely with the
FDIC’s Division of Resolutions and Receiverships (DRR) and the Legal Division to address
fraudulent concealment of assets by those who have been ordered to pay FDIC restitution.
Under protocol established between our offices, the OIG will undertake a criminal
investigation when DRR/Legal finds evidence that an individual has concealed or
fraudulently transferred assets to avoid payment of restitution to the FDIC. The OIG and
DRR worked together to issue new guidelines outlining our respective roles at bank closings.
The OIG continues to attend all bank closings where fraud is suspected and to coordinate
with DRR before, during and after the closing. The new guidelines are designed to preserve
evidence for criminal prosecution purposes while enabling DRR to access and protect records
necessary for resolution of the institution. The OIG continues to hold quarterly meetings
with DRR/Legal Headquarters officials and meets periodically with DRR managers in
Dallas. The OIG also issues quarterly reports to DRR and Legal officials outlining our
investigations related to failed institutions, asset concealment, and fraud in the sale of assets.
As significant actions occur in these cases, we provide DRR with relevant highlight reports,
copies of indictments, and related press releases and news articles. We also forward all
judgment orders stemming from our cases to DRR for their use in collecting court-ordered
restitution. The OIG has also been working with DRR and other FDIC officials in
identifying red flags and patterns of fraud found in failed bank institutions. Our agents also
make periodic presentations to DRR and Legal staff outlining “lessons learned” from our
bank failure investigations.

Electronic Crimes Unit – As computers continue to become a major part of the business
operational environment, the risk of electronic-related fraud has increased. The OIG is
committed to meeting the needs of the FDIC and the banking community to combat


                                              9
   electronic fraud. As a result, the OIG established an Electronic Crimes Unit (ECU) and
   computer forensic laboratory, housed in Washington, DC, to investigate unauthorized
   computer intrusions and computer-related fraud impacting FDIC operations, and to provide
   computer forensic support to OIG investigations. The ECU coordinates with DIRM and
   affected FDIC program offices in investigating computer-related crimes. In providing
   computer forensic support to OIG investigations, the ECU prepares search warrants for
   electronic media, provides on-site support for serving such warrants, conducts laboratory
   analysis of the evidentiary content of electronic media seized during criminal investigations,
   and provides technical advice regarding computer media used to perpetrate traditional
   crimes. The ECU attends all bank closings where fraud is suspected, and images computer
   data for evidentiary purposes in resultant criminal prosecutions. The ECU shares copies of
   the imaged files with the FDIC for its use in resolving the institution and pursuing bond
   claims. The ECU has also been assisting DRR/Legal as they research the feasibility of
   creating imaging capability of their own. The ECU worked with DRR in developing
   guidelines to be followed at bank closings for the purpose of preserving evidence and attends
   meetings with closing team members in advance of scheduled bank closings, to review the
   bank’s computer configuration and reach agreement on how to proceed with securing data at
   the closing. OIG ECU agents receive intensive training on how to search, seize, and analyze
   computer systems and evidence encountered during the course of an investigation and during
   execution of search warrants. The ECU has made training presentations to FDIC staff at
   various conferences and meetings to make them aware of the ECU capabilities and to outline
   procedures that should be followed to preserve computer evidence.

Resource Management and Mission Support Strategies

Achieving audit, evaluation, and investigative strategies requires critical mission support
functions and effective management of human capital, technology, and processes for quality
assurance and risk management. Mission support offices and resource management strategies
for these areas are discussed beginning on page 18.




                                               10
Strategic Goals, Objectives, and Annual Performance Goals

The FY 2005 performance plan identifies 39 specific performance goals that the OIG will
accomplish during the year to help us achieve our strategic goals and objectives. These
performance goals as well as the strategic goals and objectives are presented graphically on the
next several pages. Page 12 presents the OIG’s mission and strategic goals in relation to the
FDIC’s mission and strategic goals. As portrayed on this page, the OIG’s strategic goals link to
and directly support the FDIC’s strategic goals. Presented separately on pages 13-17 are the
OIG’s four strategic goals, which are briefly described below, and the related strategic objectives
and annual performance goals.

       •   Value and Impact – Strategic Goal 1 focuses on products adding value to the
           Corporation and achieving significant impact by addressing issues of importance to
           the Chairman, the Congress, and the public. The FY 2005 plan contains 11 annual
           performance goals related to value and impact.

       •   Communication and Outreach – Strategic Goal 2 focuses on fostering effective
           communications and relations with the agency, Congress, OIG employees, and our
           other stakeholders. The FY 2005 plan contains 7 annual performance goals related to
           communication and outreach.

       •   Human Capital – Strategic Goal 3 focuses on aligning and integrating our human
           capital policies and procedures to support the OIG mission. The FY 2005 plan
           contains 3 annual performance goals related to human capital.

       •   Productivity – Strategic Goal 4 focuses on effectively managing our resources to
           improve the quality and efficiency of our products and processes. The FY 2005 plan
           contains 18 annual performance goals related to productivity and efficiency.

In recognizing the dynamic nature of planning and performance measurement, we are committed
to the continued development of performance indicators and goals that better measure the impact
and results of our work.




                                                11
           Tree Diagram of OIG Goals and Objectives – FY 2005
                                                                  OIG Mission Statement
       FDIC Mission Statement



       The FDIC maintains                                         The OIG promotes the economy,
       the stability and public                                   efficiency, and effectiveness of
       confidence in the                                          FDIC programs and operations
       nation’s financial                                         and protects against fraud,
       system                                                     waste, and abuse to assist and
                                                                  augment the FDIC’s mission of
                                                                  maintaining the stability and
          FDIC Strategic Goals                                    public confidence in the nation’s
                                                                  financial system

        I. Insured
        depositors are                                            OIG Strategic Goals
        protected from loss
        without recourse to
        taxpayer funding
                                                                  SG 1 Value and Impact – OIG
                                                                  products will add value by
                                                                  achieving significant impact
        II. FDIC-                           OIG audit,
                                                                  related to addressing issues of
        supervised                          evaluation,
                                                                  importance to the Chairman, the
        institutions are safe               investigation,
                                                                  Congress, and the public
        and sound                           communication,
                                            human capital, and
                                            resource
                                            management
                                            processes and
        III. Consumers’                     activities directly   SG 2 Communication and
        rights are protected                support the FDIC      Outreach – Communications
        and FDIC-                           Strategic Goals       between the OIG and the
        supervised                                                Chairman, the Congress,
        institutions invest                                       employees, and other
        in their                                                  stakeholders will be effective
        communities



        IV. Recovery to
        creditors of                                              SG 3 Human Capital – The OIG
        receiverships is                                          will align its human resources to
        achieved                                                  support the OIG mission




                                                                  SG 4 Productivity – The OIG
                                                                  will effectively manage its
                                                                  resources




Note: The FDIC mission statement shown
above is an abbreviated form of the
Corporation’s official mission statement.
                                                          12
 OIG                Related                                   Related FY 2005 Annual
 Strategic Goal 1   Strategic Objectives                      Performance Goals

                                                       APG 1.0.1 – Issue audit and evaluation reports
                                                       covering all 7 OIG-identified risk-based
                                                       management and performance challenges (MPC)
                       SO 1.1 – The OIG will
                       contribute to ensuring
                       the protection of insured
                       depositors from loss            APG 1.0.2 – Issue an average of 2.5 reports per
                       without recourse to             team
                       taxpayer funding

                                                       APG 1.0.3 – Maintain a ratio of monetary benefits
                                                       to Office of Audits operating costs of at least $1.00
                                                       to $1.00, as measured over a 3-year period


                       SO 1.2 – The OIG will
                       contribute to ensuring          APG 1.0.4 – Disposition 80 percent of
                       the safety and soundness        recommendations within 12 months of report
                                                       issuance or 95 percent of recommendations
                       of FDIC-supervised
                                                       within 24 months of report issuance
                       institutions
SG 1 Value and
Impact – OIG                                           APG 1.0.5 – Achieve a level of FDIC senior
products will                                          executive client satisfaction with the audit function
                                                       5 percent above the level achieved in the client
add value by                                           survey for 2004
achieving
                       SO 1.3 – The OIG will
significant            contribute to ensuring
impact related         consumers’ rights are           APG 1.0.6 – Achieve a level of FDIC senior
to addressing          protected and FDIC-             executive client satisfaction with the evaluation
issues of                                              function 5 percent above the level achieved in the
                       supervised institutions
                                                       client survey for 2004
importance to          invest in their
the Chairman,          communities
the Congress,
                                                       APG 1.0.7 – 80 percent of closed cases will result
and the public                                         in either reports to management, criminal
                                                       convictions, civil actions, administrative actions,
                                                       or a combination of these elements

                       SO 1.4 – The OIG will
                       contribute to ensuring
                                                       APG 1.0.8 – 70 percent of cases accepted for
                       the achievement of              prosecution will result in convictions, pleas,
                       recovery to creditors of        and/or settlements
                       receiverships


                                                       APG 1.0.9 – Attain a minimum ratio of 6 to 1 of
                                                       financial benefits to investigative cost dollars


                       SO 1.5 – The OIG will
                       contribute to ensuring          APG 1.0.10 – Achieve a level of FDIC senior
                       the effective                   executive client satisfaction with the investigation
                       management of agency            function of 3.2 or higher
                       resources


                                                       APG 1.0.11 – Provide useful information and
                                                       analysis on corporate risks, planning,
                                                       performance, policies, and directives within
                                                  13   timeframes that are responsive to corporate
                                                       needs
 OIG                 Related                              Related FY 2005 Annual
 Strategic Goal 2    Strategic Objectives                 Performance Goals



                                               APG 2.1.1 – Promote effective corporate
                                               communications and relations by sponsoring or
                                               actively participating in various activities including
                                               quarterly meetings, conferences, seminars, task
                    SO 2.1 – Foster            forces, and training
                    effective agency
                    relations and
                    communications
                                               APG 2.1.2 – Achieve a level of FDIC senior
                                               executive client satisfaction with OIG
                                               communications efforts 5 percent above the level
                                               achieved in the client survey for 2004




SG 2
Communication                                  APG 2.2.1 – Meet with House and Senate oversight
                    SO 2.2 – Foster            committees twice a year
and Outreach –
Communications      effective
between the OIG     congressional
and the             relations and
                    communications             APG 2.2.2 – Develop transparent protocols for
Chairman, the                                  Congressional communications
Congress,
employees, and
other
stakeholders will
be effective
                                               APG 2.3.1 – The OIG Employee Advisory Group
                                               will meet three times a year to serve as facilitator of
                    SO 2.3 – Foster            communications among OIG staff and as a channel
                    effective OIG              to advise OIG management regarding employee
                                               relations
                    employee
                    relations and
                    communications
                                               APG 2.3.2 – Based on an evaluation of the OIG’s
                                               FY 2004 Employee Survey results, establish future
                                               quantitative targets for improving overall ratings



                    SO 2.4 – Foster
                    effective relations        APG 2.4.1 – Promote effective communications and
                    and                        relations with other OIG stakeholders to include
                    communications             participating in PCIE activities and meeting
                    with other OIG             quarterly with other federal regulators and
                                               representatives of the U.S. Government
                    stakeholders               Accountability Office




                                          14
  OIG                       Related                              Related FY 2005 Annual
  Strategic Goal 3          Strategic Objectives                 Performance Goals




                     SO 3.1 Workforce
                     Analysis and
                     Planning – Develop
                     and implement
                     approaches to assess
                     workforce capability
                     and plan future
                     needs




                     SO 3.2 Competency             APG 3.2.1 – 90 percent of OIG staff will complete at
                     Investments – Target          least 16 hours/CPEs of training related to the OIG
                     training,                     non-technical core competencies
                     development, and
                     recruiting that will
                     enhance OIG staff
                     competencies for              APG 3.2.2 – Offer mentoring opportunities to entry
SG 3 Human           accomplishing OIG             level staff and new supervisors in a pilot program
Capital – The        strategic objectives
OIG will align
its human
resources to
support the OIG
mission              SO 3.3 Leadership
                     Development – Use
                     development/training
                     opportunities to
                     enhance desired
                     leadership
                     competencies for
                     current and future
                     OIG leaders




                     SO 3.4 Results-
                     Oriented High
                     Performance Culture
                     – Develop and
                                                   APG 3.4.1 – Provide advisory information and
                     nurture a diverse and         training sources to OIG managers and staff about
                     results-oriented              enhancing the quality and mutual participation in
                     performance culture           performance feedback communications
                     that enables and
                     motivates employees’
                     performance


                                             15
    OIG                       Related                                 Related FY 2005 Annual
    Strategic Goal 4          Strategic Objectives                    Performance Goals



                                              APG 4.1.1 – Develop an enterprise risk management
                                              framework for the OIG that will provide an integrated
                                              organization-wide, strategic approach to measuring and
                                              managing OIG’s risks in order to maximize OIG’s value and
                                              help ensure strategic goals are achieved




                                              APG 4.1.2 – Achieve an average of 180 calendar days to
                                              produce final audit and evaluation reports




                                              APG 4.1.3 – 70 percent of active cases that have been open
                                              over 1 year will be referred and accepted for prosecution



SG 4
Productivity –                                APG 4.1.4 – 100 percent of employee cases that have either
                       SO 4.1 – OIG
The OIG will           processes are          no criminal prosecution potential or have been declined for
effectively            efficient              prosecution will be completed in less than 6 months
manage its
resources

                                              APG 4.1.5 – 90 percent of investigative reports will be issued
                                              within 30 days, and 100 percent of investigative reports will
                                              be issued within 60 working days, after completion of the case




                                              APG 4.1.6 – 140 investigative actions will result from OI cases
                                              during the year




                                              APG 4.1.7 – 70 percent of investigative resources will be
                                              dedicated directly to working investigations




                                              APG 4.1.8 – The Electronic Crimes Unit will provide an action
                                              plan and preliminary analysis of computer media examined
                                              within 30 days of receipt of requests for computer forensic
                                              support



                                                 APG 4.1.9 – The Electronic Crimes Unit will respond to 100
                                                 percent of bank closings where fraud is suspected and OI
                                                 special agents are participating



                                            16
    OIG                         Related                                 Related FY 2005 Annual
    Strategic Goal 4            Strategic Objectives                    Performance Goals
    (cont.)


                                                APG 4.1.10 – OIG Hotline information will be reviewed and
                                                a determination made as to a course of action within an
                                                average of 7 business days



                                                APG 4.1.11 – Legal services are provided within applicable
                                                timeframes 100 percent of the time
                       SO 4.1 – OIG
                       processes are
                       efficient (cont.)
                                                APG 4.1.12 – Improve the efficiency and effectiveness of the
                                                investigations data system and OIG training system with
                                                enhanced technology and design



                                                APG 4.1.13 – Improve the efficiency and quality of the
                                                OIG’s intranet, OIGNet




SG 4
Productivity –                                     APG 4.2.1 – Develop an OIG-wide Quality Assurance
The OIG will                                       Framework to document the process in place to ensure that
effectively                                        OIG work meets the highest standards of quality
manage its
resources

                                                APG 4.2.2 – Issue 4 quality control review reports that,
                                                collectively, cover reports issued by each of the audit and
                                                evaluation line directorates



                       SO 4.2 – OIG
                       products meet
                       quality standards        APG 4.2.3 – Disposition 100 percent of Office of Audit
                                                quality control review recommendations within 6 months of
                                                report issuance




                                                APG 4.2.4 – Achieve a result of zero (0) material instances of
                                                noncompliance with Government Auditing Standards as
                                                identified in quality control reviews




                                                   APG 4.2.5 – Conduct internal operational reviews of the
                                                   three major investigative offices every 12 months and resolve
                                                   significant matters identified


                                              17
Resource Management

Mission Support Offices

The OIG must maintain vital mission support functions in addition to the audit, evaluation, and
investigative functions discussed in the Strategic Outlook section of this plan. Brief descriptions
of the offices providing this critical mission support are presented below.

Office of Counsel

Independent legal services for the OIG, provided by the Counsel to the Inspector General, are a
key activity. Counsel’s services encompass every facet of OIG operations, including performing
research and providing legal advice, counseling, or opinions on audit-, investigative-, and
management-related topics; conducting or assisting with litigation affecting the OIG, including
personnel issues; preparing subpoenas, and seeking to enforce them when necessary; reviewing
proposed legislation and regulations affecting the FDIC; processing requests under the Freedom
of Information Act or the Privacy Act and any related appeals; and representing and negotiating
on behalf of OIG clients vis-à-vis other officials within the FDIC, other government agencies,
Congress, or other persons outside the FDIC.

Office of Management and Congressional Relations

Effectively managing the OIG’s business activities is essential to OIG operations. The OIG’s
Office of Management and Congressional Relations is responsible for this activity and handles
an assortment of responsibilities associated with budgets and financial management, contract
administration, human resources, employee development and training, coordination of office-
wide policy development and communication, information systems development, and the OIG’s
information technology strategic planning. This unit also manages the OIG’s relations with
Congress; responds to congressional inquiries; and coordinates the OIG’s review of proposed
legislation and draft corporation policies and procedures.

Office of Quality Assurance and Oversight

Ensuring the quality of OIG work is a high priority. The Office of Quality Assurance and
Oversight is responsible for maintaining quality assurance and organizational self-assessment
programs for OIG activities; performing external quality assurance reviews of other OIGs;
internal coordination and external oversight of risk management and internal control activities
under the Chief Financial Officers Act and the Federal Managers’ Financial Integrity Act; and
internal and external coordination of strategic and annual performance planning and reporting
activities under the Government Performance and Results Act.

Strategic Focus Areas

The effective management of OIG’s human capital, information technology, and quality
assurance and risk management process improvement programs is essential for efficiently
achieving the OIG’s mission, strategic goals and objectives, and annual performance goals.
Effective management is accomplished by providing strategic focus in these areas as follows:

                                                18
Human Capital

Corporate Environment

A rapidly consolidating financial services industry is prompting the FDIC to recalibrate its
priorities so the Corporation can maintain its footing as a premiere regulator. Over the last 20
years, there has been a 50 percent reduction in insured financial institutions, from more that
18,000 in 1985 to about 9,000 today, according to Deputy to the Chairman and Chief Financial
Officer, Steve App. During that same time there has been a 40 percent reduction in FDIC-
supervised institutions from 8,700 to about 5,200. In the meantime, the largest 100 banks have
continued to grow in asset size, and they now comprise about 70 percent of all industry assets.
The FDIC must be ready to operate effectively in this environment.

In August 2004, Deputy to the Chairman and Chief Operating Officer John Bovenzi began a
series of communications to share an evolving strategic vision relating to FDIC’s “Workforce
Planning for the Future.” In working to develop a collective vision for the Corporation’s future
business model and workforce profile, he described a number of preliminary conclusions
regarding the financial institution and regulatory environment, including changes and a
continuation of ongoing trends within the industry. Two conclusions directly related to the
Corporation’s workforce were that (1) existing skill sets would continue and would need to be
augmented by new skill sets not now available in the workforce, and (2) the FDIC of the future
will be a smaller more flexible agency. FDIC divisions and offices will work to ensure their
collective workforce has the organization focus and composition to be properly aligned with
future corporate needs.

As a means of developing a workforce with a corporate perspective that is capable of working
collaboratively to accomplish mission critical functions and responding rapidly to changes in
workload, a new Corporate Employee Program was established to help create a culture that both
encourages and rewards cross-divisional opportunities and experience in multiple disciplines.
Programs involving cross-training and cross-divisional mobility will provide employees broader
career experiences and enhanced job satisfaction while facilitating more people who have the
essential training and experience in more than one business line to respond to significant events.

The Corporation’s workforce has fallen to approximately 5,300 individuals as of September,
2004. In a continuance of steps in recent years to reduce the size of the workforce, authorized
staffing will additionally be reduced by over 600 positions over the next year or so, resulting in
substantial budget reductions in 2006. This will largely be accomplished through a combination
of buyouts and reductions-in-force (RIF). A Corporation buyout program was approved and
initiated in late 2004 and active planning has begun for RIFs in designated divisions and offices
for late 2005 and 2006.

As the Corporation adjusts to a smaller workforce, it must continue to ensure the readiness of its
staff to carry out the corporate mission. The Corporation has submitted a legislative proposal to
give it increased flexibility in the human resources area to ensure the FDIC can continue to
attract, retain, and reward our high performing employees. Hiring and retaining new talent will
be important, and having hiring and retention policies that are fair and inclusive remains a
significant component of the corporate diversity plan.


                                                19
OIG Human Capital Actions and Strategies

The OIG is undergoing a similar shift in the way we perceive our organization and our business
with a smaller, more flexible workforce that is aligned with our mission. The OIG took steps
during 2002 in accord with the Chairman’s vision, including major efforts to streamline our
workforce and work processes. The OIG participated in the Corporation’s early retirement and
buyout program and modified our structure to realign OIG operations with the critical business
lines of the FDIC, geographically as well as functionally. This resulted in the separation of 54
employees, or 25 percent of our April 2002 staff level, and the closure of our San Francisco
office during 2002. During 2005, the OIG will participate, on a limited basis, in another
corporate-wide early retirement and buyout program. The OIG plans to have a permanent staff
level of 160 in 2005, compared with the 168 staff authorized for 2004.

While restructuring to a smaller workforce, the OIG continues to look to increasing the value of
our people and the performance capacity of the OIG. Therefore, strategically managing our
human capital will continue to be a top priority in our organization. The OIG issued a Human
Capital Strategic Plan in 2002, which aligns and integrates our human resource policies and
practices with the OIG mission and this is one strategic goal. Our Human Capital Strategic Plan
also complements the other strategic goals by aligning and integrating human resource policies
and practices with our business practices. It also reflects the Chairman’s recent goals of having
the right number of people with the needed skills in the right places. Our human capital plan
focuses on four areas that are key to maximizing the return on our human capital and sustaining a
high-performance organization: workforce analysis; competency investments; leadership
development; and a results-oriented, high-performance culture.

Strengthening our workforce capabilities will be particularly important in the next several years
to prepare and position us for the future in light of our smaller workforce. As part of the Human
Capital Strategic Plan objectives on workforce analysis and competency investments, we have:

•   Prepared inventories of existing workforce knowledge and workforce knowledge needed, and
    identified gaps in knowledge needed to accomplish future work;
•   Identified and linked competencies needed for every OIG position and aligned them with job
    descriptions and position selecting factors;
•   Developed strategies for closing the identified workforce knowledge gaps, including training,
    developmental assignments, recruitment and hiring, and contracting;
•   Better aligned performance criteria and expectations and rewards/consequences with
    accomplishing the OIG strategic mission and goals.

We will continue to evaluate our workforce planning and competency investment strategies.

Skills Requirements

Reviewing FDIC programs and operations requires a staff with a broad range of knowledge,
skills, and abilities. The OIG staff is comprised of auditors, criminal investigators, attorneys,
program analysts, computer specialists, and administrative personnel. This highly professional
staff holds numerous advanced educational degrees and has attained professional certifications,
including certified public accountants, certified internal auditors, and certified fraud examiners.


                                                 20
To maintain professional proficiency, each of our staff attains an average of about 50 hours of
continuing professional education and training annually. OIG staff must also possess and
maintain the necessary skills and abilities of their respective disciplines in order to meet the
unique objectives and challenges of their assignments. For example:

•   Auditors are required to have knowledge of accounting principles and the methods and
    techniques applicable to government auditing; knowledge of government organizations,
    programs, activities, and functions they are reviewing; knowledge of applicable statutes and
    regulations; and the skills to communicate clearly and effectively, both orally and in writing.
    In addition, depending on the type of audit being conducted, auditors may have to possess
    knowledge of business, finance, and economics, and of other agencies’ programs as they
    relate to the FDIC’s work, as well as skills in research, statistical sampling, information
    systems auditing, or other specialized skills as needed.

•   Criminal investigators are required to have a thorough and current knowledge of federal
    criminal procedure and laws concerning search and seizure, arrests, advisement of rights,
    surveillance, and the right to privacy - both personal and financial. They should have
    knowledge of accounting principles, be proficient at interviewing and eliciting information
    from all types of sources, and be able to communicate clearly and effectively, both orally and
    in writing. Because of the complex mission of the FDIC, in addition to the traditional skills
    associated with their activities, criminal investigators in the FDIC OIG must have significant
    knowledge of federal bank regulations and the unique accounting principles associated with
    modern financial institution activities. Criminal investigators must be able to react quickly
    and appropriately to changing situations and be able to apply their expertise in use-of-force
    principles, self-defense, and firearms. The OIG has several agents who are trained as
    instructors in defensive tactics and firearms. In addition to their investigative duties, these
    agents provide support and advice to our National Training Officer in administering our
    training program. The OIG also has an Electronic Crimes Unit, staffed by agents who have
    been trained and certified as seized computer evidence specialists.

Analyzing Existing and Needed Workforce Knowledge and Identifying Gaps

The OIG created the OIG Business Knowledge Inventory System (BKIS) in 2003 to analyze
existing business knowledge and skills. This inventory system was created by researching other
efforts in the federal government and through input from the OIG workforce. BKIS enabled the
OIG to create a database of business knowledge of OIG employees and determine where
knowledge gaps existed. After detailed analyses of the results were performed, this information
was provided to individual offices for each to identify potential gaps in knowledge. Major
offices prepared action plans specifying how each planned to address knowledge gaps, e.g.,
formal training, developmental assignments, recruitment, or contracting. The BKIS baseline
data remains available to offices for their use in assessing knowledge and skill gaps. Future
efforts to identify knowledge gaps will involve individual offices identifying gaps and detailing
specific efforts for gap closure.

Integrating Core Competencies into the Human Capital System

Consistent with our Human Capital Strategic Plan, the OIG initiated a multi-year project to
integrate improved core competencies into its Human Capital System. The OIG Competencies


                                                21
Project identified those skills and behaviors that staff members need to contribute to the overall
mission and goals of the OIG. These core competencies formed the basis of an integrated and
strategically aligned human capital system, which includes:

•   Position descriptions
•   Performance management
•   Individual training and development
•   Selection and promotions
•   Organizational development

The OIG Competency Model enabled us to:

•   Align human resource activities with OIG strategic planning;
•   Replace outdated performance criteria developed years ago;
•   Communicate new performance expectations clearly for every employee;
•   Implement a cornerstone in the Human Capital Strategic Plan around which future efforts,
    including a training curriculum will be developed; and
•   Modernize OIG human resource functions with the best practices of high performance
    organizations in government and the private sector.

Six competencies were developed that we believe all OIG staff need to contribute successfully to
the OIG mission and goals. These competencies form the basis for expectations of every OIG
employee, including executives.

•   Achieves Results. Assumes responsibility and accountability for achieving results in support
    of the FDIC and OIG missions and goals.
•   Communicates Effectively. Effectively communicates orally and in writing to promote
    mutual understanding, effective decision-making, and information gathering.
•   Demonstrates Teamwork. Builds and maintains inclusive, responsive, and constructive
    working relationships based on mutual respect and a shared commitment to the OIG’s
    mission, values, and goals.
•   Exhibits Technical Competence. Demonstrates the technical knowledge, skills, and abilities
    necessary to effectively carry out the duties and responsibilities of his or her position.
•   Demonstrates Responsibility and Self-development. Takes personal initiative to improve
    individual and organizational performance and promote the OIG’s values and goals, while
    exhibiting high standards of professional and ethical behavior and integrity.
•   Leads Effectively (supervisors only). Creates and maintains a high performance climate
    where all employees are challenged and encouraged to achieve excellence.

Each of these competencies was further defined with subsidiary criteria describing the types of
performance included under the competency. Full integration of these core competencies into
the OIG’s human capital system helps develop a greater results-oriented, high performance
culture and enhance accomplishment of OIG strategic goals and objectives.




                                                22
Information Technology Management and Security

Corporate Environment

Information technology (IT) continues to play an increasingly greater role in every aspect of the
FDIC mission. As corporate employees carry out the FDIC’s principal business lines of insuring
deposits, examining and supervising financial institutions, and managing receiverships, they rely
on information and corresponding technology as an essential resource. Information and analysis
on banking, financial services, and the economy form the basis for the development of public
policies and promote public understanding and confidence in the nation’s financial system. IT is
a critical resource that must be safeguarded.

Accomplishing IT goals efficiently and effectively requires sound IT planning and investment
control processes. The Corporation must constantly evaluate technological advances to ensure
that its operations continue to be efficient and cost-effective and that it is properly positioned to
carry out its mission. Management of IT resources and IT security have been the focus of
several laws, such as the Paperwork Reduction Act, the Government Information Security
Reform Act (GISRA), and most recently, the Federal Information Security Management Act of
2002 (FISMA). Similar to the requirements of GISRA, under FISMA, each agency is required to
report on the adequacy and effectiveness of information security policies, procedures, and
practices and compliance with information security requirements of FISMA.

The Corporation is working to implement many sound information system security controls, and
to fully integrate these into an entity-wide program. Additionally, efforts to identify sensitive
data, plan for and fund essential security measures, incorporate security requirements in FDIC
contracts, enhance software configuration management, and measure the overall performance of
the information security program need continued attention. The FDIC’s Information Security
Strategic Plan provides for a sound information security structure and assures the integrity,
confidentiality, and availability of corporate information assets by proactively protecting them
from unauthorized access and misuse. Additionally, a New Financial Environment project has
analyzed the FDIC’s business needs and will create a financial environment that can best serve
and support the FDIC in the future.

OIG Environment

The OIG has an OIG Information Technology (IT) Strategic Plan that guides internal IT
priorities and ensures efficient and secure uses of IT resources within the OIG. The IT Plan lays
the foundation for identifying, selecting, and using technology to support the goals and
objectives of the Office of Inspector General, especially those goals and objectives detailed in
the OIG’s Strategic Plan and the Human Capital Plan. The goal is to keep the OIG IT Plan
updated and current to ensure that it is responsive in meeting the OIG's IT needs and
requirements to achieve the best possible return on investment.

Our overarching IT goal is to better link information technology planning and investment
decisions to program missions and goals, thus helping ensure that OIG managers and staff have
the IT tools and services they require to successfully and productively perform their work. The
OIG IT vision is to enable our managers and staff, through reliable, secure, and modern
technology, to be more productive and responsive. To help realize the goal and vision, we will


                                                 23
pursue IT solutions that optimize our effectiveness and efficiency, connectivity, reliability, and
security, and serve as a model organization for employing best practices in managing our IT
systems, services, and investments.

Process Improvement: Quality Assurance and Risk Management

The OIG’s value to the FDIC and to the Congress must be based on a foundation of work that is
of the highest quality. Maintaining high standards of quality is essential to achieve the vision,
mission, and goals laid out in this strategic plan, consistent with our core values. Ensuring
quality requires an effective program of risk management to effectively assess and address risks
to the OIG and the FDIC. To continue to ensure and enhance our strategic commitment to
quality and risk management, we are developing a quality assurance framework and a related
enterprise risk management framework.

These complementary initiatives are designed to ensure that our approach to quality and risk
management is comprehensive, transparent, and based on world class best practices. As a result,
OIG governance will be maintained at the highest level and will incorporate mechanisms for
continual improvement.

Quality Assurance Framework

Corporate governance deficiencies in the private sector and related audit quality failures by the
public accounting profession have been well publicized. Within the federal inspector general
community we have promoted increased attention to audit quality as a key mechanism to prevent
similar problems within the public sector. A key aspect was our leadership role in the 2003
update of the Quality Standards for Federal Offices of Inspector General issued by the
President’s Council on Integrity and Efficiency and the Executive Council on Integrity and
Efficiency. These councils, established by executive order, coordinate activities within the OIG
community and establish professional standards.

Building on and incorporating the Inspector General Act and other related laws and standards,
these updated quality standards for federal IGs encompass the broad range of OIG activities and
functions and address: ethics, independence, and confidentiality; professional standards for
audits, inspections, evaluations, and investigations; internal control standards and activities;
internal and external quality assurance programs including peer reviews; strategic and annual
planning and coordination; communicating results of OIG activities; managing human capital;
reviewing legislation and regulations; and receiving and reviewing allegations. Of particular
note, these standards incorporate the 2003 revisions of the Government Auditing Standards
(issued by the Comptroller General of the United States) with which IGs are mandated to comply
under the IG Act. The revisions made significant improvements to the independence standard
applicable to audit work.

Consistent with these quality standards, the OIG is developing a quality assurance framework
that will provide a comprehensive documentation of the mechanisms the FDIC OIG has in place
to ensure that OIG work meets the highest level of quality and provides the highest value to the
FDIC and the Congress.




                                                 24
Enterprise Risk Management Framework

Enterprise risk management (ERM) – the process of identifying and analyzing risk from an
integrated, organization-wide perspective – has been circulating and evolving as a business
concept for several years. It is closely related to the Chief Risk Officer (CRO) concept. The
ERM and CRO concepts have gained additional impetus as a result of corporate governance
problems that have arisen in the private sector that led to the passage of the Sarbanes-Oxley Act
in 2002. Although many organizations are aware of ERM, and various ERM models exist, there
has been no single, commonly accepted definition of risk management and no single, generally
accepted framework on how the process should work.

We believe the ERM concept has applicability to public as well as private sector organizations
and we have initiated work to analyze its applicability to the OIG and FDIC environments.
During this assessment process, we are evaluating various models including, in particular, the
Enterprise Risk Management – Integrated Framework released in September 2004 by the
Committee of Sponsoring Organizations of the Treadway Commission (COSO). COSO is
composed of the American Institute of Certified Public Accountants, the American Accounting
Association, Financial Executives International, the Institute of Internal Auditors, and the
Institute of Management Accountants.

Growing out of our assessment, we are developing an enterprise risk management framework for
the OIG that will provide an integrated organization-wide, strategic approach to measuring and
managing all of OIG’s risks in order to (1) maximize the OIG’s value in relation to risks and (2)
provide reasonable assurance that OIG’s mission and strategic goals and objectives will be
achieved. Because of the interrelationship of the OIG risk management and FDIC-wide risk
management, our initiative will necessarily consider the broad FDIC risk management
environment and processes. We expect that the concepts, parameters, and model resulting from
our initiative may be valuable to the Corporation as it continually improves its risk management
programs and practices.




                                               25
External Factors

The following external factors are beyond the OIG’s control; however, they could significantly
affect the achievement of the goals and objectives in this plan.

Budget

One of the most significant external factors that could affect achievement of our goals is our
budget. Unlike other FDIC divisions and offices, the OIG is subject to the congressional
appropriations process. A significant reduction in our budget would adversely affect the
achievement of our strategic goals and objectives by limiting our ability to review FDIC
programs and activities; respond to allegations of fraud, waste, and abuse; and provide training to
our professional staff.

External Requests

The OIG frequently has to respond to external requests and requirements beyond what is planned
for in our workload and resource estimates. These requests often require immediate response
and shifting of workloads and priorities. Examples include congressional mandates, inquiries,
and requests; Chairman’s and management’s requests; litigation; Freedom of Information Act
and Privacy Act requests; hotline complaints; or other high priority requests for audits,
evaluations, and investigations. These requests can require substantial amounts of time and
resource expenditures, with significant impact on our planned workload. An increase in external
requests above projected levels may have an adverse effect on meeting our planned goals and
objectives.

Resolution of Failing Financial Institutions

Uncertainties in the environment in which financial institutions operate present a challenge to
planning OIG resources and activities. The financial institution environment evolves rapidly,
particularly with the acceleration of interstate banking, new banking products and asset
structures, electronic banking, and consolidations. Also, economic conditions can have a
significant effect on the risk profiles of FDIC-insured financial institutions. For instance, an
economic downturn could result in a higher rate of financial institution failures and an increase
in the inventory of assets to be managed and liquidated by the FDIC. An increase in institution
closings and assets to be liquidated could require the OIG to reallocate resources from planned
program area activities to unplanned receivership management activities. Also, the closing of
institutions increases the risk of fraud, which could affect the workload and allocation of
resources for investigative work. Such factors, which are beyond our control, could hinder the
OIG’s ability to achieve its planned goals.

Emerging Technology

Emerging technology has introduced new ways for insured depository institutions to offer
traditional products and services through new delivery channels and, in some instances, has
fostered development of innovative products and services. Examples of new technology include
Internet banking, e-commerce, e-government, and stored-value card systems. Technological

                                                26
advancements have influenced the operating strategies of many insured depository institutions
and other providers of financial services as they seek to compete in the increasingly fast-paced
and globally interdependent environment. With technological advancements, particularly the
increased use of electronic banking initiatives, there is a potential risk that fraud and other
inappropriate activity may occur. A reallocation of OIG resources could be needed to ensure that
such risks are appropriately addressed.

Changes in the Financial Services Industry

Over the past 20 years, unprecedented changes have taken place in the financial services industry
that have significantly changed and shaped the environment in which the FDIC and the other
financial regulatory agencies operate. Deposit interest rates have been deregulated, geographic
restrictions have been eliminated, restrictions on permissible activities and products have been
loosened, and the number of insured commercial banks has decreased dramatically. These
changes are being driven by financial modernization, privacy concerns, industry consolidation,
the emergence of new institutions, new trends in borrowing and lending, globalization, and
emerging technology. More major changes for the financial services industry may be in store in
the coming years. The OIG will continue to monitor these changes and other emerging issues as
they develop to ensure they are appropriately addressed through our audits, evaluations, and
investigations. This may require a reallocation of our resources, which could affect the
achievement of the goals and objectives in this plan.




                                               27
Verification and Validation of Performance Data

Performance data will be verified and validated through the following means:

•   The System for Tracking Audits and Reports (STAR) tracks information on audit and
    evaluation assignments, reports, recommendations, time, and independent public accountant
    assignments, and provide managers with reports on those activities. STAR is used to
    generate performance measurement data reported under the Results Act as well as provide
    statistics for the OIG’s Semiannual Report to the Congress. The data and related reports are
    analyzed by OIG staff for accuracy, reasonableness, and completeness. In addition, other
    controls such as edit checks and supervisory review of data input are used to ensure the
    validity and integrity of the performance data and reports.

•   The OIG’s Office of Investigations database system was designed specifically, in part, to
    more accurately track the measures and goals we have established under the strategic and
    annual performance plans. The database system tracks information on investigative cases
    opened and closed; fines, restitutions, and other monetary recoveries; and judicial and
    administrative actions. We also have an inspection regimen set up to closely monitor the
    activities of our investigative offices and to ensure the accuracy of data entered into our
    database.

•   Designated OIG staff will be responsible for collecting, maintaining, and reporting
    performance data. Through our performance reports, OIG management will review reported
    data for consistency with general performance observations. Each year, we will reevaluate
    whether measures are effectively designed and results-oriented. Based on this evaluation, we
    will determine whether our performance measures should be revised for the next planning
    cycle.

•   Internal control and quality assurance reviews, performed on a cyclical basis to cover all OIG
    functions (audits, investigations, evaluations, and support and administrative activities), will
    selectively validate performance data on a test basis, as appropriate, to meet review
    objectives.




                                                 28
